 

Nos. 21-5854 & 21A51

 

IN THE SUPREME COURT OF THE UNITED STATES

 

ERNEST JOHNSON,

Petitioner,
v.

PAUL BLAIR, WARDEN,
Respondent.

CERTIFICATE OF SERVICE

I hereby certify that I am a member of the Bar of this Court and that eleven
copies of the briefin opposition and suggestions in opposition to motion for stay were
sent by Federal Express, pursuant to Rules 29.5(b), this day, October 4, 2021, to:

Scott S. Harris, Clerk

Supreme Court of the United States
1 First Street, N.E.

Washington, D.C. 20543

Further, I hereby certify that all parties required to be served have been
served, and that one true and correct copy of the forgoing documents in this cause
were sent by Federal Express, pursuant to Rule 29.5(b), this day, October 4, 2021, to:

Jeremy Weis

Suite 600

T1000 Walnut

Kansas City, MO 64106

Respectfully submitted,

 

Counsel of Record
